         Office of Inspector General




September 15, 2005

STEVEN W. MONTEITH
EXECUTIVE DIRECTOR, HUMAN CAPITAL ENTERPRISE

SUBJECT:      Audit Report – Human Capital Enterprise SAP Human Resources Project
              (Report Number IS-AR-05-015)

This report presents the interim results of our audit of the Human Capital Enterprise
SAP Human Resources Project (Project Number 05BG006IS001). Postal Service
management requested that the Office of Inspector General (OIG) review the system
controls over roles and separation of duties in the SAP Human Resources system. We
plan to perform additional work in this area and issue a final report in the near future.

The Postal Service has not finalized a strategy to establish a core security group for
administering the SAP Human Resources security functions, although management has
nearly completed the initial phase of project implementation. Also, the Postal Service
needs to implement a change management system to document and manage
configuration changes. Establishing a security function early in the project
implementation phase will reduce dependence on contractors for security functions and
facilitate knowledge transfer to Postal Service personnel. Additionally, a suitable
change management system will provide the Postal Service with audit trails of all
authorized changes to roles and avoid incorrect role assignments.

We made two recommendations pertaining to establishing a core security group to
administer SAP security functions. Management has taken action or planned initiatives
to address the core functions of the security group. Management also agreed with the
intent of recommendation three to implement a formal change management system to
document authorized role changes. Management plans to implement an audit trail of
these changes after completing its current testing, and stated it is in the process of
documenting each role. Management plans to use standard SAP tools and reports to
track role assignments and changes and eAccess to track SAP authorization requests.
However, we believe the eAccess system may not be able to comprehensively track all
the data needed for SAP authorization requests. Management plans to implement
these initiatives no later than January 2006. Management’s comments and our
evaluation of these comments are included in the report.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Gary Rippie,
Director, Information Systems, or me at (703) 248-2300.

E-Signed by Office of Inspector General
  VERIFY authenticity with ApproveIt



John M. Seeba
Deputy Assistant Inspector General
 for Financial Operations

cc: Anthony J. Vegliante
    Robert L. Otto
    George Wright
    Peter Myo Khin
    Steven R. Phelps
Human Capital Enterprise                                                      IS-AR-05-015
 SAP Human Resources Project


                                   INTRODUCTION
Background                 There are more than 70 systems supporting the Postal
                           Service’s human resources and payroll functions. The
                           nonintegrated environment creates inefficient and redundant
                           work for a large network of Postal Service employees in
                           area and performance cluster offices.

                           The Board of Governors approved a Decision Analysis
                           Report that provides $103.4 million in funding for
                           implementation of a human resources shared services
                           project to replace this legacy environment. An Enterprise
                           Resources Planning (ERP) system for the human resources
                           functionalities of the Postal Service is the main component
                           of this shared services project.

                           The Human Capital Enterprise office has the overall
                           responsibility for implementing the shared services project.
                           The Postal Service established the office as a way to move
                           toward a performance-based culture, which they plan to do
                           by redesigning and streamlining processes and
                           implementing world-class human resources solutions. This
                           effort–called the PostalPeople initiative–consists of the
                           shared services project and the human resources ERP
                           system. The manager, Human Capital Enterprise Programs,
                           has day-to-day responsibility for managing the PostalPeople
                           initiative.

                           The Postal Service issued a contract for $29 million to SAP
                           Public Services, Incorporated, in July 2004 to acquire
                           software services for ERP implementation. As of
                           March 2005, the total commitment for the shared services
                           project was $70 million. Management expects the project to
                           be completed at the estimated cost of $103.4 million.

                           The Postal Service is implementing the ERP system using
                           SAP R/3, a commercial ERP solution. This solution will
                           incorporate human resources functionality for all Postal
                           Service employees into a single integrated system. When
                           management fully implements the system, it will incorporate
                           the following modules:




                                            1
Human Capital Enterprise                                                                                     IS-AR-05-015
 SAP Human Resources Project



                                    •   Organization                       •    Recruitment
                                        management
                                    •   Personnel                          •    Environmental health and
                                        administration                          safety
                                    •   Benefits management                •    Training events management
                                    •   Personnel                          •    Compensation management
                                        development
                                    •   Bid management                     •    Time and leave management

                                    This implementation will also include the
                                    employee self-service and manager self-service
                                    components that let employees and managers access the
                                    system through Web portals.

                                    The initial timeline for the current phase was to complete
                                    implementation in the following three performance clusters
                                    by August 2005: the Triboro performance cluster in the
                                    New York Metro Area, the Santa Ana performance cluster in
                                    the Pacific Area, and the Northland performance cluster in
                                    the Western Area. However, delay in integration testing
                                    forced the Postal Service to postpone implementation until
                                    October 2005. This postponement could extend to
                                    January 2006 for the Santa Ana and Northland performance
                                    clusters.1

                                    Reconciliation issues within associate offices in the
                                    Santa Ana and Northland performance clusters contributed
                                    to the delay in integration testing. Postal Service executives
                                    said they have developed a standardized approach to
                                    address these issues in performance clusters targeted for
                                    future implementation. Delays in the bid management
                                    module and payroll interface readiness also contributed to
                                    the delay in integration testing.

                                    Management has configured 88 roles2 for implementing the
                                    first phase. Management will load and test organizational
                                    data for the Triboro cluster before assigning these roles to
                                    the appropriate positions. Additionally, they will perform
                                    customer acceptance testing before the Triboro performance
                                    cluster goes online.

1
  Prior to issuing this final report, we learned the Postal Service plans to delay the Triboro cluster implementation until
January 2006 and implement the Santa Ana and Northland clusters in April 2006.
2
  A role is a collection of privileges that management can assign to a user or to a different role. These privileges
provide the ability to perform operations and impose restrictions on operations the holder of the role can perform.



                                                             2
Human Capital Enterprise                                                        IS-AR-05-015
 SAP Human Resources Project




Objective, Scope,          The objective of this audit was to determine whether there
and Methodology            are adequate system controls over roles and separation of
                           duties within the SAP Human Resources system. We
                           conducted our work at Postal Service Headquarters in
                           Washington, D.C., and the SAP development office in
                           Arlington, Virginia.

                           To identify system controls over the roles and authorizations
                           within the SAP system, we analyzed SAP quality assurance
                           system reports. Our review was limited to determining the
                           adequacy of authorizations in 62 roles identified as of
                           May 23, 2005. During our review, management made a net
                           increase of 26 roles, and we will perform additional work to
                           evaluate these new roles. We will also perform additional
                           work to review the configuration of organizational positions,
                           which were not ready for this review.

                           To determine the progress made in establishing a security
                           group, we interviewed the executive director, Human Capital
                           Enterprise; manager, Human Resources Payroll; and the
                           senior SAP consultant. We also reviewed system
                           requirement specifications and SAP best practices.

                           To determine the adequacy of a change management
                           system, we interviewed the executive sponsors and the SAP
                           consultant and compared procedures to industry best
                           practices.

                           This audit was conducted from March through
                           September 2005, in accordance with generally accepted
                           government auditing standards and included such tests of
                           internal controls as were considered necessary under the
                           circumstances. We used manual and automated techniques
                           to analyze the computer-processed data. Based on these
                           tests and assessments, we concluded the data were
                           sufficiently reliable for meeting the objective of our review.
                           We discussed our observations and conclusions with
                           management officials and included their comments where
                           appropriate.




                                             3
Human Capital Enterprise                                                         IS-AR-05-015
 SAP Human Resources Project




Prior Audit Coverage       We did not identify any prior audits or reviews related to the
                           objective of this audit. This is the initial SAP implementation
                           within the Postal Service.




                                             4
Human Capital Enterprise                                                         IS-AR-05-015
 SAP Human Resources Project


                                   AUDIT RESULTS
                           Our preliminary review of the system controls over roles and
                           separation of duties within the SAP Human Resources
                           system indicates the Postal Service is making progress in
                           refining the roles to be implemented in the initial phase of
                           the project. However, the Postal Service has not appointed
                           a core security group or implemented a change
                           management system. Security and controls over the ERP
                           system can be enhanced by appointing a core security
                           group early in the project and implementing a formal change
                           management system.

Core Security Group        Human Capital Enterprise personnel have not finalized a
                           strategy to establish a security group to administer the SAP
                           Human Resources security functions. Management has not
                           defined functional specifications or organizational structure
                           for a security function for the human resources ERP system.
                           SAP best practices recommend management establish a
                           security function with separate duties for user maintenance,
                           authorization maintenance, and authorization assignment at
                           the inception of the project. Timely establishment of a
                           security group would reduce Postal Service dependence on
                           the contractor to establish and implement the initial SAP
                           controls and security configurations and would facilitate the
                           knowledge transfer to Postal Service personnel needed to
                           provide effective oversight of the system implementations.

                           With a centralized structure and administration in an ERP
                           system, it is critical for management to establish a security
                           group to oversee ERP administration to ensure that security
                           controls remain effective. The security function for the SAP
                           system should ensure proper segregation of duties in
                           creating roles, assigning roles, role maintenance, and
                           locking and unlocking users. Considering the size and
                           structure of the Postal Service’s ERP system, a dedicated
                           security function with adequate staffing and a proper
                           reporting structure is necessary in order to obtain the
                           desired benefits.

                           Without definitive guidance from Postal Service
                           management, the SAP contractor has implemented a
                           security architecture that is organized into three functional
                           areas:




                                             5
Human Capital Enterprise                                                           IS-AR-05-015
 SAP Human Resources Project


                           •       A user maintenance function responsible for locking
                                   and unlocking users, changing passwords, and
                                   changing attributes. This position cannot create or
                                   assign roles or profiles.

                               •   An authorization maintenance function responsible for
                                   creating roles and profiles. This function cannot create
                                   organizational positions or security-related roles or
                                   assign any roles.

                               •   An authorization assignment function responsible for
                                   assigning roles. This function cannot create roles or
                                   profiles or assign security-related roles.

                               The SAP contractor made these preliminary decisions
                               because management did not designate any Postal Service
                               personnel for SAP security functions. Postal Service
                               management still needs to evaluate and approve these
                               decisions.

                               Certain functional responsibilities, such as role
                               maintenance, are operational functions. Best practices
                               suggest separating security oversight from operational
                               functions. The security function will require a proper
                               reporting structure to ensure sufficient independence for
                               oversight and, at the same time, provide the required
                               operational support.

                               During the requirements analysis stage of the project, the
                               SAP consultants recommended the establishment of a
                               security team that meets the above control requirements.
                               However, because of competing priorities and project
                               management challenges, management has not
                               implemented this recommendation. Establishing a security
                               function early in the project implementation phase will
                               enable the Postal Service to reduce dependence on
                               consultants, transition smoothly from the contractor, and
                               facilitate knowledge transfer.




                                                6
Human Capital Enterprise                                                         IS-AR-05-015
 SAP Human Resources Project




Recommendation             We recommend the executive director, Human Capital
                           Enterprise:

                           1. Develop a strategy and milestones to establish a
                              security group for administering the SAP Human
                              Resources security functions.

Management’s               Management agreed with our recommendation and is
Comments                   forming a security group to administer the SAP Human
                           Resources security functions. To ensure separation of
                           duties between the security functions, the Postal Service
                           plans to establish two teams for the security group.
                           Management stated it would initially staff the security group
                           with two full-time personnel by December 10, 2005, and add
                           more full-time or part-time staff as appropriate after the
                           Postal Service implements the three initial sites. The initial
                           staff will attend necessary SAP classes and will receive
                           training from SAP necessary to ensure knowledge transfer.
                           Management’s comments, in their entirety, are included in
                           the appendix of this report.

Recommendation             We recommend the executive director, Human Capital
                           Enterprise, direct the manager, Human Capital Enterprise
                           Programs, to:

                           2. Verify that role authorizations conform to this strategy.

Management’s               Management agreed with our recommendation and stated
Comments                   they have created and reviewed three separate
                           authorization roles to enforce the separation of duties. The
                           manager, Human Capital Enterprise Programs, will
                           complete this activity by December 10, 2005.

Evaluation of              Management’s comments are responsive to
Management’s               recommendations 1 and 2, and their actions taken or
Comments                   planned should correct the issues identified in the finding.

Change Management          The Postal Service needs a formal change management
                           system for the ERP system to document baseline role
                           authorizations and subsequent changes. Management has
                           not chosen a final change management solution to




                                             7
Human Capital Enterprise                                                                              IS-AR-05-015
 SAP Human Resources Project


                                     document and manage authorization changes.
                                     Handbook AS-8053 requires that management establish
                                     baseline configurations of Postal Service information
                                     resources and make changes prior to deployment to ensure
                                     employees do not inadvertently expose information
                                     resources to unnecessary risks and vulnerabilities. A formal
                                     change management system is required to maintain an audit
                                     trail of all authorized role changes and prevent incorrect role
                                     configurations and incompatible role assignments.

                                     The Postal Service also needs to develop comprehensive
                                     baseline documentation of the roles configured on the SAP
                                     system. Without clear documentation, support personnel
                                     will have difficulty understanding the design objectives and
                                     functionalities of SAP objects such as roles and
                                     authorizations. This may lead to incompatible role
                                     assignments, incorrect changes, and difficulty in system
                                     maintenance. Detailed baseline documentation of the roles
                                     will serve as a foundation for future change management
                                     and facilitate employee transition.

                                     Management is considering two potential change
                                     management solutions: (1) the eAccess system and
                                     (2) SAP Solutions Manager. The eAccess system, which
                                     manages user accounts and logon procedures, may not be
                                     adequate to serve as a change management system. The
                                     Postal Service could use the eAccess system to manage the
                                     assignment of roles, but the system is not capable of
                                     managing changes made to roles. An appropriate change
                                     management solution for the SAP ERP system should both
                                     incorporate baseline documentation maintenance and
                                     provide change management functionalities for roles,
                                     positions, organizational units, sensitive and restricted
                                     transaction codes, and other critical SAP objects.

Recommendation                       We recommend the executive director, Human Capital
                                     Enterprise, direct the manager, Human Capital Enterprise
                                     Programs to:

                                     3.    Implement a formal change management system to
                                           document baseline role authorizations and subsequent
                                           changes.


3
    Information Security, March 2002 (updated with Postal Bulletin revisions through May 26, 2005).



                                                            8
Human Capital Enterprise                                                      IS-AR-05-015
 SAP Human Resources Project




Management’s               Management agreed the Postal Service should implement
Comments                   an audit trail of authorized role changes. Management
                           stated it is impractical and unfeasible to capture all role,
                           configuration, and programming changes that result from
                           daily integration and customer acceptance testing.
                           Therefore, management stated the Postal Service will
                           implement the audit trail after completing current testing.
                           Management also stated the Postal Service is writing
                           detailed documentation of each role. Management’s plans
                           include using existing SAP software that provides standard
                           tools and reports to track role changes, role assignments,
                           and changes to role assignments, which staff would run
                           daily after completing current testing. In addition,
                           management’s plans include using eAccess as a tracking
                           tool for SAP authorization requests after implementing SAP.
                           The manager, Human Capital Enterprise Programs, will
                           implement these initiatives by January 2006.

Evaluation of              Management agreed with the intent of our recommendation,
Management’s               and their action to document each role is responsive to our
Comments                   recommendation. In addition, management’s plans to
                           implement an audit trail of authorized role assignments and
                           changes using standard SAP tools and reports are
                           responsive to the recommendation, and the actions taken or
                           planned should correct the issues identified in the finding.

                           However, we have reservations about management’s plans
                           to use eAccess as a tracking tool for SAP authorization
                           requests. Management may be able to use eAccess to
                           manage the assignment of roles; however, eAccess may not
                           be able to manage the authorization of changes for roles,
                           positions, organizational units, sensitive and restricted
                           transaction codes, and other critical SAP objects. Because
                           we have concerns with management’s plans to rely on
                           eAccess to track authorization requests, we may review the
                           process for managing SAP authorizations in a follow-up
                           audit.

Other Matters              The potential for delay, leading to cost escalation, exists
                           throughout the project implementation period. Management
                           was scheduled to complete the SAP implementation in
                           phases, with the initial phase targeted for completion in
                           August 2005. However, the Postal Service has encountered


                                            9
Human Capital Enterprise                                                        IS-AR-05-015
 SAP Human Resources Project


                           data conversion and integration testing issues that have
                           forced postponement in project implementation schedules.
                           These issues could potentially be found in other
                           performance clusters, resulting in overall project delay and
                           additional costs. Management, based on lessons learned,
                           developed a standardized approach to deal with
                           reconciliation issues caused by associate offices.

                           Though we do not provide recommendations to address
                           project management issues, management should be aware
                           of the potential for project management risks, which can
                           result in increased project costs and the system not being
                           ready on time. There is also the potential risk that tasks
                           such as integration testing and customer acceptance testing
                           may be condensed or conducted concurrently to make up
                           lost time, thereby impacting the overall reliability of the
                           production system.




                                            10
Human Capital Enterprise                        IS-AR-05-015
 SAP Human Resources Project


              APPENDIX. MANAGEMENT’S COMMENTS




                               11
Human Capital Enterprise            IS-AR-05-015
 SAP Human Resources Project




                               12
Human Capital Enterprise            IS-AR-05-015
 SAP Human Resources Project




                               13
